         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report

The Department of Energy's
Administration of Energy Savings
Performance Contract Biomass
Projects




DOE/IG-0892                      August 2013
                                  Department of Energy
                                    Washington, DC 20585

                                         August 26, 2013

MEMORANDUM FOR THE SECRETARY



FROM:                     Gregory H. Friedman
                          Inspector General

SUBJECT:                  INFORMATION: Audit Report on "The Department of Energy's
                          Administration of Energy Savings Performance Contract Biomass
                          Projects"

BACKGROUND

Currently, biomass is the single largest source of renewable energy in the United States.
Biomass technologies convert fuels developed from various feed stocks to heat and/or electricity
and can be used in place of fossil fuels in most energy applications, such as steam boilers, water
heaters, generators and gas turbines. Biomass fuels include all plant and plant-derived (organic)
materials that are available on a renewable or recurring basis, including sources from agriculture,
forestry, mill residues, urban waste, landfill gases and dedicated energy crops. Energy Savings
Performance Contract (ESPC) financing mechanisms can help Federal agencies develop and
finance biomass projects to take advantage of local biomass resources while reducing energy
costs and achieving Federal renewable energy goals. Under an ESPC, a private-sector energy
services company develops, finances and installs energy improvement projects, such as a
biomass project, on a Federal site in exchange for a share of future savings over the contract
term.

In 2012, to help achieve renewable energy goals and realize energy cost savings, the Department
of Energy began operating two new biomass facilities located at its Oak Ridge National
Laboratory (Oak Ridge) and the Savannah River Site. The $65 million Oak Ridge Biomass
Gasification Steam Plant replaced four of the Laboratory's six natural gas boilers, and will be
supplemented by the remaining two gas boilers to provide steam for the Laboratory's thermal
needs. The new $164 million Biomass Cogeneration Facility at the Savannah River Site
replaced a 1950s era coal plant, and was designed to provide enough steam capacity to satisfy the
Site's thermal requirements and a significant portion of the electrical demand. Because of the
renewable benefits of biomass and the costs associated with ESPCs, we initiated this audit to
determine if the Department is effectively and efficiently administering its ESPC-financed
biomass projects.

RESULTS OF AUDIT

Our review of the ESPC-financed Biomass Projects at Oak Ridge and the Savannah River Site
disclosed that the Savannah River Site had generally developed and administered its Biomass
Facility in an effective manner. We found, however, planning and operational issues with the
                                                2

Oak Ridge Biomass Plant could cause the Department to incur over $67 million more than
necessary over the life of the project. Specifically, we noted that the Oak Ridge Site Office had
not always planned and operated its Biomass Plant to minimize the Government's risk and had
not:

   •   Required site characterization testing, and mitigation of adverse conditions, prior to
       awarding an ESPC that involved a major construction project. Instead, site testing was
       completed after awarding the ESPC, an omission that contributed to significant
       construction delays and resulted in a $44 million life-cycle increase to the ESPC price.

   •   Mitigated the risk of biomass fuel shortages and cost fluctuations, a problem that could
       result in fuel costs exceeding original plans/projections by more than $23 million over the
       life of the project. Particularly, Oak Ridge had only one supplier, had not performed a
       current market analysis, and had only enough storage to keep the Biomass Plant
       operational for a 3-day period.

   •   Verified the quantity of biomass fuel deliveries. Oak Ridge had no system in place to
       confirm that the amount of biomass fuels delivered to the site was accurate. This basic
       safeguard would have reduced the chances of undetected weight variances in delivered
       loads of fuel which could cause significant cost increases over the life of the project.

These problems were due in part to inadequate guidance and oversight. Notably, the Department
had not required major ESPC construction projects to adhere to critical elements of its existing
capital project management and acquisition directive. Also, the Department had not developed a
process to identify, document and disseminate lessons learned from ESPC projects across the
complex.

To their credit, we found that both Oak Ridge and the Savannah River Site endeavored to
operate, maintain and repair biomass equipment according to the energy services company's
standards, and to ensure savings were generated. Both sites held monthly meetings with
Department, Management and Operating Contractor, and energy services company officials to
review operation data, discuss equipment issues and manage upcoming maintenance. These
meetings enabled all parties to have open communications, monitor progress and proactively
address equipment concerns.

However, improvements are warranted to increase the effectiveness and efficiency of the
Department's administration of its ESPC-financed biomass projects. We have made several
recommendations designed to not only assist the Department with ongoing biomass projects, but
also with planning, designing and operating future ESPCs and biomass facilities.

MANAGEMENT REACTION

Management generally concurred with the report's recommendations and identified actions it had
planned or underway to address our recommendations. Overall, Energy Efficiency and
Renewable Energy management committed to improving the Biomass Program award
administration and the award of the ESPCs. Oak Ridge Site Office management agreed to
                                                 3

review available biomass fuel suppliers, assess onsite fuel storage locations, and take action to
ensure accuracy of fuel deliveries. We consider management's comments responsive to the
report's recommendations. Management's comments are included in Appendix 3.

Attachment

cc:    Deputy Secretary
       Acting Under Secretary of Energy
       Acting Under Secretary for Science
       Assistant Secretary for Energy Efficiency and Renewable Energy
       Director, Office of Science
       Chief of Staff
REPORT ON THE DEPARTMENT OF ENERGY'S ADMINISTRATION OF
ENERGY SAVINGS PERFORMANCE CONTRACT BIOMASS
PROJECTS

TABLE OF
CONTENTS


Implementation and Operation of Biomass Projects

Details of Finding ..................................................................................................................1

Recommendations ..................................................................................................................5

Management Reaction ...........................................................................................................6

Auditor Comments .................................................................................................................7

Appendices

1.    Objective, Scope and Methodology ...............................................................................8

2.    Related Reports ..............................................................................................................10

3.    Management Comments .................................................................................................11
THE DEPARTMENT OF ENERGY'S ADMINISTRATION OF ENERGY
SAVINGS PERFORMANCE CONTRACT BIOMASS PROJECTS

Implementation and Operation of Biomass Projects

The Department of Energy (Department) had not effectively and efficiently managed all of its
Energy Savings Performance Contract (ESPC) biomass projects to adequately minimize risk to
the Government. Although the Savannah River Site's Biomass Cogeneration Facility was
generally planned and administered with the goal of minimizing the Department's risk, the Oak
Ridge National Laboratory (Oak Ridge) had not implemented effective risk mitigation strategies
during the development of the Biomass Gasification Steam Plant. Specifically, Oak Ridge had
not performed site characterization and mitigated adverse conditions prior to awarding the ESPC.
In addition, Oak Ridge had not effectively mitigated the risk of biomass fuel shortages and price
increases related to its Biomass Plant by identifying multiple fuel suppliers. Also, it had not
developed a system for verifying the amount of biomass fuel being received for processing.

                                       Site Characterization

Oak Ridge had not ensured that thorough site characterization was performed and any adverse
conditions mitigated prior to awarding the contract and initiating construction on its Biomass
Plant. Although an industry best practice, the Oak Ridge Site Office had not ensured the
construction site was suitable and the soil conditions had been properly analyzed prior to the
initiation of a major construction project. This is especially important for Department sites
where legacy contamination is common. However, unlike the Savannah River Site which
utilized historic records to identify a location that was devoid of hazardous materials, the Oak
Ridge Site Office did not rely on historic records or perform site testing and analysis. Instead it
awarded the biomass contract and accepted responsibility for the remediation of hazardous
materials outside of asbestos and lead paint. This occurred even though the construction site
required the demolition of legacy structures from the original steam plant, which throughout the
years operated on coal, fuel oil and natural gas, a fact that compounded potential environmental
impacts at the site.

Subsequent geotechnical exploration at Oak Ridge completed 5 months after contract award
confirmed the presence of water and/or petroleum odor in seven of the nine soil borings at the
construction site. Despite exploration findings at Oak Ridge, construction on the Biomass Plant
began without investigation or remedy. During this work, construction crews encountered water
infiltration from unknown sources, and detected soil contamination from petroleum and diesel
fuel. As a result, the project was delayed by 9 months and construction costs were increased by
nearly $6 million. Rather than pay for this $6 million increase upfront, the Oak Ridge Site
Office financed the increase into the contract with extended terms, and modified the ESPC for an
additional $44 million.

After reviewing our preliminary draft, Oak Ridge Site Office officials stated that site
characterization had been performed prior to contract award and provided an assessment report.
In particular, a site walk-down assessment was performed on behalf of the energy services
company several months before the ESPC was awarded. The independent engineering firm that
performed the walk-down identified specific concerns with hazardous materials on the


Page 1                                                                          Details of Finding
construction site including petroleum contamination, radioactive contaminated ground water and
beryllium contamination. Further, the assessment noted the potential for schedule impacts if
plans for remediation of the contamination were not put in place. However, despite the warning,
the Oak Ridge Site Office entered into the ESPC and did not: (1) address the contamination
issues; (2) include remediation activities in the ESPC scope; or (3) consider its financial impact
to the project. After encountering the contamination during excavation, the contract was
amended to fund the remediation effort over the life of the contract.

We noted that similar exploration surveys conducted at the Savannah River Site were performed
prior to awarding the ESPC. Further, the Savannah River Site required an approved site use
permit, which solicited interested parties across the complex to comment and express any
concerns related to the project site. Site analysis work performed at the Savannah River Site
eliminated the potential for contamination issues and the Biomass Facility was built on schedule
and within budget.

                                        Woodchip Supply

Oak Ridge had not effectively mitigated the risk of biomass fuel shortages and price increases
related to its Biomass Plant. A substantial amount of biomass fuel, approximately 10 truckloads
of woodchips per day, is necessary to generate steam at the Biomass Plant during peak
operations. Under the ESPC structure, responsibility for operations, preventative maintenance,
equipment repair and replacement, and procurement of fuel for the biomass facilities is
negotiable and may be assumed by the energy services company, the site Management and
Operating (M&O) contractor or by the Federal agency. The Oak Ridge Site Office elected to
have these operational responsibilities performed by the M&O contractor. However, this
arrangement shifted the performance risk from the energy services company and placed it on the
M&O contractor to ensure the biomass plant operates as expected and at the guaranteed cost.

While the Oak Ridge Site Office had assumed the risk and responsibility for the procurement and
storage of the woodchips via its M&O contractor, it had not adequately mitigated the risks of
fuel shortages or price increases. Specifically, at the time of our audit, the M&O contractor had
only one woodchip supplier, and had no backup suppliers identified. While the M&O contractor
can contract with multiple suppliers, it had not done so. Further, we found that although the site
had conducted an informal survey of suppliers in late 2010 and early 2011, it had relied on the
energy services company's fuel supplier analysis that was performed more than 4 years prior to
awarding the woodchip supplier contract, instead of performing a current analysis. The M&O
contractor should have a current analysis on the woodchip market to ensure availability of
backup fuel suppliers. In addition, Oak Ridge had the capability to only store a 3-day supply of
woodchips. In contrast, the Savannah River Site had a 30-day supply of woodchips stored on-
site, which minimized its risk of fuel shortages.

During the course of our audit, we noted that Oak Ridge's M&O contractor had taken actions to
alleviate concerns with its woodchip supply. For instance, the M&O contractor had authorized a
"pre-buy" of a 90-day woodchip inventory to be stored at the supplier's place of business. While
this is a positive step, Oak Ridge's entire biomass operation remains reliant on a single supplier
and the bulk of the inventory is stored at the supplier's location. Disruptions in supply could
mean that Oak Ridge's Biomass Plant would be unable to meet the steam needs of the site. In


Page 2                                                                         Details of Finding
that case, Oak Ridge's two gas boilers could generate enough steam for the Laboratory's needs.
However, the Oak Ridge Site Office assumed the risk of fueling the Biomass Plant, and failure to
achieve energy savings due to fuel disruptions would result in the Oak Ridge Site Office paying
for the guaranteed savings without them being realized.

Furthermore, with only one supplier, Oak Ridge is particularly vulnerable to cost increases,
which it had already experienced. In particular, at $50 a ton, Oak Ridge was paying nearly twice
as much for woodchips as originally estimated by the energy services company, which could cost
the Department an additional $1.63 million in the first year of operation alone. Unlike Oak
Ridge, the Savannah River Site elected to have the energy services company responsible for
biomass fuel procurement and on-site storage at that site, rather than the M&O, which passes its
costs to the Department. The energy services company employed an industry expert to negotiate
competitive rates among its seven woodchip suppliers, and had paid an average price of
$28.50 per ton for its woodchips.

Also, the Oak Ridge Biomass Project did not have a set of scales to verify the weight of the
woodchips it received. Oak Ridge's supplier weighed the woodchip trucks prior to delivery on a
certified scale at its place of business and provided the M&O contractors with a hand-written
weight ticket. M&O biomass representatives stated that they reviewed the hand-written weight
tickets, but there was no mechanism to ensure that the weights were correct. For example, we
noted that Oak Ridge's hand-written weight tickets for fuel ranged from 20 tons to 31 tons,
representing a 57 percent variance in loads of woodchips delivered. Further, we noted that
several weight tickets did not contain tare weights, indicating that trucks may not have been
weighed prior to delivery. Consequently, Oak Ridge had limited assurance that it was receiving
the correct amount of woodchips it was paying for. At 10 truckloads a day, even small
discrepancies in the weight could result in a significant variance.

According to Oak Ridge Site Office representatives, it was standard practice to accept hand-
written tickets for various types of commodities delivered to Oak Ridge. In regard to the
woodchips, Oak Ridge Site Office officials believed that the supplier's certified scale provided
the assurance that the weights were accurate and stated that it would assume the risk of
falsification. However, since the supplier's certified scale does not generate a computerized
weight ticket, the hand-written tickets allow for an increased risk of human error and/or
falsification.

Management of ESPC-Financed Biomass Projects

These conditions occurred, in part, because the Department did not have sufficient guidance and
oversight for managing the construction of large-scale ESPC projects. The Department also did
not share lessons-learned from other similar projects.

                                     Guidance and Oversight

The Department lacked sufficient guidance for managing the construction of large-scale ESPC
projects. Specifically, the Department relied on its Federal Energy Management Program
(FEMP) to provide guidance on ESPC projects and the Sustainability Performance Office to
oversee the Department's sustainability efforts. While FEMP's guidance addresses the

Page 3                                                                         Details of Finding
development, award and administration of ESPC projects, it does not address the construction
phase of the projects. In constructing large-scale facilities for capital assets costing $50 million
or more, the Department generally relies on guidance established in Department Order 413.3B,
Program and Project Management for the Acquisition of Capital Assets. The objective of the
order, among other things, is to strengthen line management accountability, clearly define roles
and responsibilities, and develop an integrated project team to assist in planning, programming
and budgeting. The Order also establishes critical decision points and independent project
reviews to facilitate project oversight. Although the Oak Ridge Biomass Plant and the Savannah
River Site Biomass Facility each cost more than $50 million, they were obtained with alternative
financing rather than capital funds, and thus were not required to follow the tenants of
Department Order 413.3B.

Consequently, the Oak Ridge Biomass Project did not implement a rigorous and structured
project management process. For example, the project lacked an integrated project team and
neither the Department's contracting staff, or the project management staff assigned to the
project, had prior experience in overseeing construction projects or in negotiating and managing
ESPCs. According to Oak Ridge Site Office representatives, this lack of experience led the Site
Office to accept unsuitable terms in the contract, such as those that excluded remediation of
hazardous materials at the construction site. Had Department Order 413.3B or similar project
management requirements applied to alternatively-financed projects, Oak Ridge would likely
have flagged the construction site problems through critical decision points and independent
reviews, and thus addressed them prior to incurring additional costs. In contrast to Oak Ridge's
efforts, we noted that the Savannah River Site did follow tenants of Department Order 413.3B to
ensure that risks were identified and mitigated, and that an integrated project team was
established. Unlike the Oak Ridge Biomass Plant, the Savannah River Site Biomass Facility was
completed ahead of schedule and within budget.

Further, although the ESPC is between the Oak Ridge Site Office and the energy services
company, we found that the Site Office was notably under-represented at the construction and
design meetings, in terms of project management and construction expertise, even after the
project encountered substantial problems. Project personnel stated that during the construction
meetings, the Contracting Officer's Representative was the only Department official present to
address technical issues. Given the representative's inexperience with construction and ESPC
projects, and the lack of Department support at the meetings, the Department's interests may not
have been fully protected. For example, the Oak Ridge Site Office failed to formally request the
energy services company change its project manager when it became apparent that the manager
lacked the qualifications to manage the construction of the Biomass Plant. The project manager
supervised construction for approximately 9 months before the energy services company agreed
to replace the manager with a more experienced one. By that point, the construction had
encountered significant delays and additional expenses.

                                     Sharing Lessons learned

The Department also did not have an effective process to identify, document and disseminate
lessons-learned from ESPC projects across the Department complex. Sharing of critical lessons-
learned could help ensure that project personnel, especially those new to ESPCs, are fully aware


Page 4                                                                          Details of Finding
of the fundamental risks and benefits associated with ESPCs, and could assist them in structuring
the most advantageous contract. For instance, the Savannah River Site noted the value of
lessons-learned through the experience it gained during the 2008 installation of a separate
Biomass Facility. The Savannah River Site used an energy services company to construct the
prior Biomass Facility, and similar to Oak Ridge, the Department assumed the risks for
operations and maintenance via the Site's M&O contractor. After experiencing multiple
mechanical failures under this arrangement, the Savannah River Site ensured that operations and
maintenance responsibilities for the new Biomass Facility would be borne by the energy services
company.

Furthermore, while the FEMP provides project facilitators and guidance to assist Federal
agencies in planning ESPCs, FEMP may not be aware of problems encountered by agencies. For
example, we noted that FEMP was not aware that Oak Ridge had experienced difficulties in the
construction of the Biomass Plant, which resulted in significant project delays and cost increases.
Consequently, while lessons gained from that experience may help Oak Ridge in future
endeavors, these valuable lessons were not shared with other sites to enable them to avoid
making similar mistakes and assume unnecessary risk.

Cost Controls

Without improvements, Oak Ridge will continue to miss opportunities to reduce project
implementation and operating costs. Specifically, had the Oak Ridge Site Office performed due
diligence in characterization of the project site prior to project award, it could have avoided the
$44 million required to finance the contract cost overruns resulting from remediation of water
and contamination issues identified at the construction site.

In addition, Oak Ridge Site Office elected to have operational responsibilities performed by the
M&O contractor. However, this arrangement removed the performance risk from the energy
services company and placed it onto the M&O contractor to ensure the Biomass Plant operates as
expected and at the guaranteed cost. The Department will be obligated to continue full payments
to the energy services company even if the M&O contractor's biomass strategies result in an
increase in operational costs or do not meet the energy services company's guarantee.

Also, in the absence of a current market analysis of wood chip suppliers and procurement of
wood chips from multiple suppliers, Oak Ridge is unable to mitigate the risk of supply shortages
or cost increases in fuel. For example, at the time of our review Oak Ridge was paying $50 a ton
for wood chips or nearly twice what was originally estimated for the project. As a result, Oak
Ridge will realize an additional $23.4 million in operational costs over the life of the project.

Furthermore, the lack of internal controls over woodchip procurement and deliveries exposes
Oak Ridge to increased risk of overpayment for wood chips. For example, without a system in
place to verify the weight of the woodchips received, recording an excess weight of just
5 percent on the hand-written tickets could cost Oak Ridge an additional $2.9 million over the
life of the ESPC.

RECOMMENDATIONS

We believe the observations in this report will not only assist with the operation of the current
Oak Ridge Biomass Facility, but also provide valuable lessons learned for the Department with

Page 5                                                                        Recommendations
planning, designing and operating future ESPCs and biomass facilities. To improve the
administration of ESPC biomass projects and the overall effectiveness of ESPCs, we recommend
that the Assistant Secretary for Energy Efficiency and Renewable Energy ensure that the
Director, Sustainability Performance Office, in coordination with the Program Manager of the
Federal Energy Management Program:

   1. Implement critical project management practices, to include the development of an
      integrated project team, critical decision points and independent reviews for managing
      the construction of projects funded through alternative financing mechanisms; and

   2. Implement a process to identify, document and disseminate lessons-learned from ESPC
      projects across the Departmental complex and the Federal government.

We also recommend that the Manager, Oak Ridge National Laboratory Site Office:

   3. Annually update the biomass fuel supplier analysis to identify the availability of backup
      suppliers and evaluate the opportunities to implement a multiple fuel supplier delivery
      process;

   4. Conduct an assessment of potential on-site biomass fuel storage locations to increase Oak
      Ridge's storage capacity and title to fuel supply; and

   5. Develop a system to verify the biomass fuel delivery that is independent of the supplier's
      scale.

MANAGEMENT REACTION

Management generally concurred with the report's recommendations and indicated that
corrective actions were planned or underway to address the issues identified. In response to
Recommendation 1, Office of Energy Efficiency and Renewable Energy (EERE) management
stated that the Headquarters' ESPC review procedures will be revised to provide
recommendations on project management when project investment costs are greater than
$50 million. However, EERE management added that it did not have authority over other
Department programs and sites and that construction projects are managed by field offices in
conformance with landlord program requirements. Regarding Recommendation 2, EERE
management responded that they have an existing lessons-learned process which includes project
facilitators to identify and incorporate lessons-learned. However, they agreed to continue to look
for ways to further incorporate lessons-learned and to improve Departmental as well as
programmatic processes.

With regard to Recommendation 3, Oak Ridge Site Office management stated that a review of
fuel suppliers will be conducted at a frequency of no less than every 3 years, or when
approximately 80 percent of a current wood fuel contract value has been reached. However,
Management contended that the site's broker/supplier contract with its current woodchip supplier
allows it to obtain fuel from alternate sources. Concerning Recommendation 4, Site Office
management stated that it will prepare an assessment report evaluating the onsite storage of



Page 6                                                                  Management Reaction
biomass fuels to increase storage capacity and title to fuel supply. Addressing Recommendation
5, Oak Ridge Site Office management agreed to formalize the biomass fuel acceptance criteria
by requiring a machine printed weight ticket from a state certified scale.

AUDITOR COMMENTS

EERE's and Oak Ridge Site Office's planned corrective actions are generally responsive to our
recommendations. Regarding Recommendation 1, EERE does have the authority to distribute
guidance to all ESPC projects even though it does not have authority over other Department
programs and sites. Such guidance would aid in the effective and efficient management of ESPC
projects throughout all phases including construction. Regarding Recommendation 2, we
acknowledge the benefits derived from the experience and advice of Departmental project
facilitators. However, a more formalized process would help ensure that ESPC project personnel
make well-informed decisions. Nevertheless, EERE's continuing efforts to further incorporate
lessons-learned for process improvement are commendable.

With regard to Oak Ridge Site Office's response to Recommendations 3 through 5, we consider
the planned corrective actions responsive. However, we believe that annual supplier updates
would provide greater protection against fuel disruption risks. Further, we disagree that the site's
woodchip supply contract represents a broker contract arrangement. The current woodchip
supplier has title to the wood located at the supplier's place of business and processes whole logs
into chips to be delivered to Oak Ridge. Finally, while obtaining a machine printed weight ticket
from a state certified scale strengthens controls, independent verification of biomass fuel
quantities would be ideal. Management's comments are included in their entirety in Appendix 3.




Page 7                                                                         Auditor Comments
Appendix 1


OBJECTIVE

The objective of the audit was to determine if the Department of Energy (Department) is
effectively and efficiently administrating its Energy Savings Performance Contract projects.

SCOPE

The audit was performed from July 2012 through August 2013. We conducted work at the Oak
Ridge National Laboratory (Oak Ridge) in Oak Ridge, Tennessee and the Savannah River Site in
Aiken, South Carolina. At the time of our audit, both the Oak Ridge Biomass Gasification
Steam Plant and the Savannah River Site's Biomass Cogeneration Facility were in their first year
of operation. Therefore, our review focused on the activities related to the administration and
operation of the recently constructed projects and did not include a detailed analysis of generated
energy savings.

METHODOLOGY

To accomplish our object, we:

    • Reviewed guidance applicable to energy savings performance contracts and management
      of capital asset projects;

    • Reviewed the energy savings performance contract delivery orders at Oak Ridge and the
      Savannah River Site;

    • Evaluated the operations and maintenance structure of the Biomass Plant at Oak Ridge
      and the Biomass Facility at the Savannah River Site;

    • Identified construction lessons learned from the Oak Ridge and the Savannah River Site
      Biomass Projects; and

    • Analyzed the Oak Ridge Biomass Plant and the Savannah River Site Biomass Facility
      including fuel storage areas and fuel delivery processes.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives. Accordingly, we assessed
significant internal controls and compliance with laws and regulations necessary to satisfy the
audit objective. In particular, we assessed the Department's implementation of the GPRA
Modernization Act of 2010 and found the Department had not established performance measures
related to the operations of its biomass facilities or its Energy Savings Performance Contract task
orders within the Department. Because our review was limited, it would not necessarily have
disclosed all internal control deficiencies that may have existed at the time of our audit. We did
not rely on computer-processed data to accomplish our audit objective.

Page 8                                                     Objective, Scope and Methodology
Appendix 1 (continued)


We held an exit conference with Office of Energy Efficiency and Renewable Energy officials on
August 15, 2013.




Page 9                                                  Objective, Scope and Methodology
Appendix 2

                                    RELATED REPORTS

Office of Inspector General Report

   •   Audit Report on the Management of Energy Savings Performance Contract Delivery
       Orders at the Department of Energy (DOE/IG-0822, September 2009). The audit
       revealed the Department of Energy (Department) had not always effectively used Energy
       Savings Performance Contract orders to achieve energy savings. Specifically, it was
       noted during the audit that the Department had not ceased payments to the energy
       services company after projects had stopped generating savings, verified the Energy
       Savings Performance Contract orders had generated the contractually required energy
       savings, ensured equipment installed was appropriately operated and maintained, and
       taken actions to include all costs necessary to implement the project when evaluating the
       project's cost-effectiveness. It was also noted that the site offices had not ensured
       adequate management existed for the individual orders, the Department had not
       implemented an effective training program for contract and technical support personnel,
       and the Federal Energy Management Program had not developed specific guidance
       regarding estimates of the costs of energy improvements.

U.S. Government Accountability Office Report

   •   Report on Natural Resources: Woody Biomass Users' Experience Offer Insights for
       Government Efforts Aimed at Promoting Its Use (GAO-06-336, March 2006). The U.S.
       Government Accountability Office identified several challenges faced by the 13 woody
       biomass users included in their review. The availability of an affordable supply of
       woody biomass depends to a significant degree on the presence of a local logging and
       milling infrastructure to collect and process forest materials. Without a milling
       infrastructure, there may be little demand for forest materials, and without a logging
       infrastructure, there may be no way to obtain the materials. Some users had difficulty
       obtaining a sufficient supply of woody biomass, either because of constraints on the
       supply of the material or because of insufficient availability of loggers to collect it.
       Additionally, wood utilization also tended to increase operation and maintenance
       requirements for users. For example, after one facility converted from natural gas and
       fuel oil to wood, it reported that the number of personnel needed to maintain its central
       heating plant nearly doubled.




Page 10                                                                        Related Reports
Appendix 3


             MANAGEMENT COMMENTS




Page 11                            Management Comments
Appendix 3 (continued)




Page 12                  Management Comments
Appendix 3 (continued)




Page 13                  Management Comments
                                                                    IG Report No. DOE/IG-0892


                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.

Name                                          Date


Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations


If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
